                United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                Washington, D.C. 20240



                                                                              November 3, 2003



Memorandum

To:        Inspector General
           Federal Communications Commission

From:      Joseph Ansnick
           Director of External Audits

Subject:   Final Report on Audit of the E-rate Program at Santa Fe Indian School, Inc.,
           Santa Fe, New Mexico (Report No. R-GR-FCC-0006-2003)

        This report presents the results of our audit of the E-rate Program benefits received by
Santa Fe Indian School, Inc (the School), from the Universal Service Fund (USF). The E-rate
Program provides discounts on the cost of obtaining communication services, such as basic
phone service; internet access; and internal connections (wiring and network equipment), to
eligible schools and libraries. The objective of this audit was to determine whether the School
complied with the rules and regulations of the E-rate Program and to identify Program areas,
which may need improvement. We conducted this review in accordance with the Memorandum
of Understanding (MOU) between the Department of the Interior Office of Inspector General
(DOI-OIG); the Universal Service Administrative Company (USAC); the Federal
Communications Commission Office of Managing Director (FCC-OMD); and the Federal
Communications Commission Office of Inspector General (FCC-OIG).

        We concluded that the School complied with the program rules and requirements of the
E-rate Program for the funding years 1998 through 2001. We held an exit conference on
September 10, 2003, with the School representative, who agreed with the results of the review.

       If you have any questions regarding this report, please contact me at (703) 487-5353 or
Mr. James Duff, FCC Audit Coordinator, at (703) 487-5350.
Report on Audit of the E-rate Program at Santa Fe Indian School



                              Introduction
Background                   The USF provides affordable access to eligible communications
                             services for schools, libraries, rural health care providers,
                             low-income consumers, and companies serving high-cost areas.
                             On May 7, 1997, the FCC adopted a Universal Service Order
                             implementing the Telecommunications Act of 1996, including
                             the E-rate Program of the USF. USAC is responsible for
                             administering the USF under the direction of the FCC’s Wireline
                             Competition Bureau. The Schools and Library Division (SLD) of
                             USAC administers the E-rate Program. Under the E-rate
                             Program, eligible schools and libraries may receive discounts
                             from 20 to 90 percent of the cost of eligible communication
                             services, depending on economic need and location of the
                             beneficiary.

                             Discounts may be applied to three kinds of eligible
                             communication services:

                              • Telecommunication services, including basic phone service.
                              • Internet access.
                              • Internal connections, including wiring and network
                                equipment needed to bring information directly to
                                classrooms or library patrons.

                             In accordance with the Inspector General Act of 1978, as
                             amended, the FCC-OIG has oversight responsibilities for the
                             USF as a federal Program of the FCC. The FCC OIG has
                             designed a plan of audit oversight to provide FCC management
                             with a reasonable level of assurance that E-rate beneficiaries are
                             complying with Program rules and regulations and that Program
                             controls are adequate to prevent fraud, waste, and abuse.

                             We conducted this review in accordance with a MOU between
                             the DOI-OIG, USAC, FCC-OMD, and the FCC-OIG. Under the
                             MOU, DOI-OIG will apply specific procedures for the audit of
                             beneficiaries of E-rate Program funds.




                                              2
Report on Audit of the E-rate Program at Santa Fe Indian School


                             The School, located in Santa Fe, New Mexico, was founded as an
                             off-reservation boarding school in 1890. In December 2000,
                             ownership of the 104-acre campus was transferred from the
                             Bureau of Indian Affairs (BIA) to the 19 Pueblo tribes of New
                             Mexico. Santa Fe Indian School, Inc. is a non-profit Indian
                             organization under Section 501(c)(3) of the IRS Code. The
                             School operates under a grant awarded by the BIA under the
                             auspices of Public Law 100-297, Tribally Controlled Schools Act
                             of 1988, and is administered by a school board whose members
                             are appointed by the Governors of the 19 Pueblos. The School
                             operates an academic program for grades 7 through 12 with a
                             population of over 600 students, of which approximately
                             two-thirds reside in the School’s dormitories. Students come
                             mainly from the 19 Pueblos. The North Central Association,
                             Commission on Schools, and the New Mexico State Department
                             of Education accredit the School.

Objective and                Our objective was to determine whether the School complied
Scope                        with the rules and regulations of the E-rate Program and to
                             identify Program areas which may need improvement.

                             The scope of the review was designed to test school compliance
                             with the E-rate Program requirements contained in Title 47, Part
                             54 of the Code of Federal Regulations (47 CFR § 54.500 through
                             47 CFR § 54.520) which provide that:

                              • The school certifies it has an approved technology plan.
                              • The school determines its discount percentage by the
                                percentage of their student enrollment that is eligible for a
                                free or reduced price lunch under the national school lunch
                                program or a federally-approved alternative mechanism.
                              • Services rendered comply with the school application for
                                E-rate funds and are installed or provided before the
                                installation deadline.
                              • Schools use a competitive process to select the most cost
                                effective service provider.
                              • Schools purchase equipment and services in accordance with
                                applicable procurement rules and regulations.
                              • The applicant pays its portion of the pre-discounted costs.
                              • The school certifies it has adequate resources to use the
                                discounted services for which funding has been provided.
                              • The school certifies that it has complied with all of the E-rate
                                Program rules.

                             The School received the following commitments for the 4-year




                                             3
Report on Audit of the E-rate Program at Santa Fe Indian School


                             audit period as follows:

                             Funding      Amount         Amount
                              Year       Committed      Disbursed          Service Type
                               1998       $458,961.30 $458,961.30       Internal Connections
                               1998        $40,032.00  $36,654.42       Telecommunications
                               1999        $29,095.20     $29,095.20    Telecommunications
                               2000       $305,402.50 $281,767.55       Internal Connections
                               2000         $6,075.00          $0       Internet Access
                               2000        $38,520.93          $0       Telecommunications
                               2001       $223,547.31     $80,564.39    Internal Connections
                               2001         $2,250.00      $1,800.00    Internet Access
                               2001        $18,302.82     $16,515.27    Telecommunications
                            TOTALS $1,122,187.06         $905,358.13

                             We performed our review of the School during the period June
                             through September 2003. We visited the school located in Santa
                             Fe, New Mexico, in June and July 2003, to conduct an entrance
                             conference with the school administration, to perform site
                             inspections and inventory verifications of the equipment installed
                             by the service provider, and to obtain documentation in support
                             of services obtained under the E-rate Program.

                             This review was conducted in accordance with Government
                             Auditing Standards issued by the Comptroller General of the
                             United States. As part of the scope of our review, we obtained an
                             understanding of the specific management controls relevant to the
                             E-rate Program. Because of inherent limitations, a study and
                             evaluation made for the limited purposes of our review would not
                             necessarily disclose all material weaknesses in the control
                             structure.




                                              4
Report on Audit of the E-rate Program at Santa Fe Indian School



                 RESULTS OF REVIEW
      We found that the School complied with the program rules and requirements of the E-rate
Program for funding years 1998 through 2001. Specifically, we found that the School:

   •   Had a technology plan that was properly prepared and approved.

   •   Had support for the basis for the discount rate claimed.

   •   Awarded competitively its contracts for internal connections and purchased equipment
       and services in accordance with applicable procurement rules and regulations.

   •   Documented that the equipment installed and services rendered complied with its
       applications for E-rate funds and were installed or provided before established deadlines.

   •   Installed internal connections in buildings that were eligible for E-rate program assistance
       at the time of its applications and installations.

   •   Demonstrated that it had the necessary financial and staff resources to provide the
       equipment, software, and staff training needed to use the internal connections effectively.

   •   Documented that it paid its matching share requirement for the non-discounted portion of
       all of the E-rate Program assistance provided for the audit period.

   •   Complied with the E-rate Program rules for audits and record keeping.


        In addition, we did not identify any material weaknesses in the Schools internal controls
relevant to the E-rate program. However, we did identify a reportable condition that is discussed
in the following paragraphs.

       USAC’s funding approval was based on contracted services that showed specific
hardware (manufacturer, model, configuration, and quantity of each) that would be installed
under internal connections. Our inventory of the contractor’s as-built system showed that three
instances of minor product substitutions had occurred without obtaining USAC approval of the
changes. This occurred in part because of the length of time USAC took to issue funding
commitment decision letters and/or the rapidly changing availability of specific products due to
technological advances and manufacturers entering and leaving the market place. The three
instances of substitutions at the School are as follows:

   •   In the first instance, USAC took 9 months to issue its funding commitment decision letter
       to the School for internal connections for Funding Year 1998. USAC’s funding approval
       included contracted services with Gateway, Inc. that was based on specific server




                                                5
Report on Audit of the E-rate Program at Santa Fe Indian School


       hardware (manufacturer, model, configuration, and quantity of each) that would be
       installed under internal connections. However, by the time USAC approved the funding
       commitment and the School issued its purchase order, Gateway’s server product line had
       advanced technologically. Gateway offered the School its then state of the art server at
       the same price it had earlier quoted for what was now out-dated equipment. The School
       believed that this was a minor contract modification since the service provider remained
       the same, the functionality of the substituted equipment remained the same, and the cost
       of the substituted items did not exceed the cost of the original items. The School,
       therefore, did not notify USAC of the modification.

   •   In the second instance, USAC took 4 months to issue its funding commitment decision
       letter to the School for internal connections for Funding Year 2000. USAC’s funding
       approval was based on contracted services that showed specific hardware (manufacturer,
       model, configuration, and quantity of each) that would be installed under internal
       connections. However, at about the time of USAC’s approval, the manufacturer (Intel) of
       the switch equipment to be installed notified the service provider that it had stopped
       production of the desired equipment. Intel recommended suitable switch equipment
       substitutes that it was still producing. The School agreed with Intel’s recommendation
       and the service provider installed the equipment substitutes at no additional cost. The
       School was under the impression again that this was a minor contract modification since
       the service provider remained the same, the functionality of the substituted equipment
       remained the same, and the cost of the substituted items did not exceed the cost of the
       original items. The School, therefore, did not notify USAC of the modification.

   •   In the third instance, USAC took 13 months to issue its funding commitment decision
       letter to the School for internal connections for Funding Year 2001. USAC’s funding
       approval was based on contracted services that showed specific hardware (manufacturer,
       model, configuration, and quantity of each) that would be installed under internal
       connections. However, at about the time of USAC’s approval, the manufacturer (Intel) of
       the switch equipment to be installed stopped production of the desired equipment. Since
       the School’s switch capacity design for Funding Years 2001 and 2002 were based on
       using Intel switches, it was necessary for the School to revise its strategy. The School
       selected the CISCO product line and was under the impression again that this was a
       minor contract modification since the service provider remained the same, the
       functionality of the substituted equipment remained the same, and the cost of the
       substituted items did not exceed the cost of the original items. The School, therefore, did
       not notify USAC of the modification.




                                                6
